Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   MEDICARE BENEFICIARY 

 ACCESS TO SKILLED NURSING 

     FACILITIES: 2004 





                    Daniel R. Levinson

                    Inspector General 


                       July 2006 

                     OEI-02-04-00270

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
    I N T R O D     U C T       I O N
Δ    E X E C U T I V E                   S U M M A R Y                                          



                  OBJECTIVE
                  To assess Medicare beneficiaries’ access to skilled nursing facilities
                  (SNFs) since the implementation of the prospective payment system.


                  BACKGROUND
                  This study is a followup to a series of earlier studies conducted by the
                  Office of Inspector General (OIG) on access to skilled nursing for
                  Medicare beneficiaries who are discharged from hospitals to SNFs. In
                  1997, the Centers for Medicare & Medicaid Services (CMS) began
                  implementing a prospective payment system for SNFs. In 1999, CMS
                  asked OIG to identify any early effects the new payment system may be
                  having on Medicare beneficiaries’ access to SNFs. This series is part of
                  OIG’s ongoing commitment to monitor beneficiaries’ access to SNF care.

                  The Balanced Budget Act of 1997 required payments for skilled nursing
                  care to be made on a prospective basis. The prospective payments rates
                  are determined by Resource Utilization Groups (RUGs). SNFs are
                  required to classify each beneficiary into 1 of 44 RUGs based on their
                  care and resource needs. Each RUG represents a different Medicare
                  payment rate.

                  This inspection is based on data from two sources: structured
                  interviews with 256 hospital discharge planners who have firsthand
                  experience placing Medicare beneficiaries in SNFs, and an analysis of
                  5 years of Medicare data on beneficiaries who were discharged from a
                  hospital to a SNF.


                  FINDINGS
                  Most Medicare beneficiaries have access to skilled nursing facilities.
                  Eighty-four percent of discharge planners report that they are able to
                  place all of their Medicare beneficiaries who need care in a SNF in a
                  typical month. This is a statistically significant increase from our 2001
                  study, in which 73 percent of discharge planners reported being able to
                  place all of their Medicare beneficiaries who need care in a SNF.

                  Further, Medicare data show no large changes that may indicate a
                  decline in access for beneficiaries with certain medical conditions who
                  were discharged from a hospital to a SNF in the past 5 years. We define
                  a large change to be 1 percentage point or greater or 1 day or longer. A
                  decrease in the proportion of Medicare beneficiaries with certain


OEI-02-04-00270   MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   i
E X E C U T I V E              S U     M M A R Y


                   medical conditions being placed in SNFs might indicate that
                   beneficiaries are experiencing a decline in access to SNF care. We found
                   no large decreases in the proportion of Medicare beneficiaries with 9 of
                   the 10 most common Diagnosis Related Groups (DRG) and 8 of the 10
                   most common RUGs over the past 5 years. Similarly, an increase in the
                   average length of stay in the hospital or an increase in the average
                   length of time between hospital discharge and the start of SNF care
                   might indicate a decline in access. We found no large increases in either
                   of these measures for any of the 10 most common DRGs or for any of the
                   10 most common RUGs since the implementation of the prospective
                   payment system.
                   However, beneficiaries with certain medical conditions or service
                   needs may experience delays. Thirty-five percent of discharge
                   planners report having Medicare beneficiaries who experience delays at
                   least sometimes before being placed in a SNF. Discharge planners
                   report that Medicare beneficiaries needing intravenous (IV) antibiotics
                   and/or expensive drugs, wound care, a ventilator, or dialysis, as well as
                   beneficiaries with behavior problems, are most often delayed before
                   being placed in a SNF. Discharge planners who report delays placing
                   Medicare beneficiaries in SNFs commonly explain that the cost of
                   providing these services or Medicare reimbursement is the reason for
                   placement delays.
                   Differences in placement rates and length of stay between
                   beneficiaries in urban and rural areas and beneficiaries placed in
                   nonprofit and for-profit facilities were detected. We analyzed the
                   proportion of Medicare beneficiaries with certain medical conditions in
                   SNFs in urban and rural areas to see if there were any large
                   differences, compared to the proportion of all Medicare beneficiaries in
                   SNFs in urban and rural areas. We found that beneficiaries with
                   certain medical conditions are placed more frequently in SNFs in urban
                   or rural areas as compared to the overall population. Specifically, for 3
                   of the 10 most common RUGs, a greater proportion of beneficiaries were
                   in SNFs in urban areas. Conversely, for another 2 of the 10 RUGs, a
                   greater proportion of beneficiaries were in SNFs in rural areas.
                   Additionally, Medicare data show that beneficiaries with certain
                   medical conditions in urban areas have longer average lengths of stay in
                   the hospital than beneficiaries with the same conditions in rural areas.

                   We also found that beneficiaries with certain medical conditions are
                   more frequently placed in nonprofit or for-profit SNFs as compared to


 OEI-02-04-00270   MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   ii
E X E C U T I V E              S U     M M A R Y


                   the overall population. Specifically, for 2 of the 10 most common RUGs,
                   a greater proportion of beneficiaries were in nonprofit facilities. For
                   another 3 of the 10 RUGs, a greater proportion of beneficiaries were in
                   for-profit facilities.


                   CONCLUSION
                   We continue to find that Medicare beneficiaries discharged from
                   hospitals have access to SNFs, as evidenced by a significant increase in
                   the proportion of discharge planners who report that they are able to
                   place all their beneficiaries in SNFs. Additionally, we find that
                   Medicare data show no large changes that may indicate a decline in
                   access to care for beneficiaries with the most common medical
                   conditions and/or service needs discharged to SNFs in the past 5 years.
                   At the same time, we find that discharge planners report that
                   beneficiaries with certain medical conditions or service needs may
                   experience placement delays.

                   These findings are similar to the findings in our prior three reports,
                   suggesting that, overall, the prospective payment system has not
                   resulted in reduced access to care. We encourage CMS to continue to
                   monitor access to SNF care. In particular, CMS might closely monitor
                   beneficiaries who experience delays in accessing care, including those
                   who need IV antibiotics and/or expensive drugs, complex wound care, a
                   ventilator, or dialysis, and those who have behavior problems.




 OEI-02-04-00270   MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   iii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .................................... i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8



                   Most Medicare beneficiaries have access to 

                   skilled nursing facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                   Beneficiaries with certain medical conditions may 

                   experience delays . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                   Differences in access exist between urban and rural areas 

                   and between nonprofit and for-profit facilities . . . . . . . . . . . . . . . 14 



         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   A: RUG Classification System . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                   B: Confidence Intervals for Key Findings . . . . . . . . . . . . . . . . . . . 18 


                   C: Department of Agriculture’s Urban Influence Codes . . . . . . . . 19 


                   D: Analysis of Most Common DRGs and RUGs . . . . . . . . . . . . . . 20 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 

Δ   I N T R O D U C T I O N                                    



                    OBJECTIVE
                    To assess Medicare beneficiaries’ access to skilled nursing facilities
                    (SNFs) since the implementation of the prospective payment system.


                    BACKGROUND
                    This study is a followup to a series of earlier studies conducted by the
                    Office of Inspector General (OIG). In 1997, the Centers for Medicare &
                    Medicaid Services (CMS) began implementing a prospective payment
                    system for SNFs. In 1999, CMS asked OIG to identify any early effects
                    the new payment system might be having on Medicare beneficiaries’
                    access to SNFs.

                    In response, OIG conducted a series of studies on access to SNFs for
                    Medicare beneficiaries who are discharged from hospitals. This series is
                    part of OIG’s ongoing commitment to monitor beneficiaries’ access to
                    SNFs. The Medicare Payment Advisory Commission has also
                    emphasized the importance of these reports and of continuing to
                    monitor access to care for Medicare beneficiaries following
                    hospitalization.1
                    Medicare Skilled Nursing Facilities
                    A SNF provides skilled nursing care and related services to residents
                    who require medical or nursing care, or to injured, disabled, or sick
                    persons who require rehabilitation services.2 Care includes services of
                    skilled medical personnel, such as registered nurses and professional
                    therapists. This care is available 24 hours a day, is ordered by a doctor,
                    and requires a treatment plan. A SNF may be freestanding or it may be
                    a distinct part of a hospital.

                    Medicare Part A covers SNF care under certain conditions. These
                    conditions include a requirement of daily skilled nursing or
                    rehabilitation services, a prior 3-consecutive-day stay in a hospital,
                    which is determined to have been medically necessary, admission to the
                    SNF within a 30-day period after leaving the hospital, and treatment
                    for the same condition that was treated in the hospital. SNF care
                    provided under Medicare is limited to a benefit period of 100 days, with


                  1 Medicare Payment Advisory Commission (MedPAC), “Report to Congress: Medicare 

                  Payment Policy March 2004,” 2004. 

                  2 42 U.S.C. § 1395i-3(a). 





OEI-02-04-00270     MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   1
I N T R O D          U C T        I O N

                    a copayment required for days 21 through 100.3 After the Medicare
                    100-day SNF Part A benefit runs out, the Medicare Part B benefit
                    continues to pay for Part B-covered services furnished by a SNF.
                    SNF Prospective Payment System
                    The Balanced Budget Act of 1997 (BBA) requires payments for skilled
                    nursing care to be made on a prospective basis. Accordingly, SNFs are
                    now paid through prospective, case-mix adjusted per diem payments
                    that cover routine, ancillary, and capital-related costs, including most
                    items and services for which payment was previously made under
                    Medicare Part B.

                    Under the prospective payment system, SNFs are required to classify
                    residents into 1 of 44 Resource Utilization Groups (RUGs), which
                    determine payment rates. The RUGs are divided into seven major
                    categories: special rehabilitation, extensive services, special care,
                    clinically complex, impaired cognition, behavior problems, and reduced
                    physical function.4 Appendix A provides a more detailed description of
                    the RUGs.
                    Changes in the SNF Prospective Payment System
                    Congress has made several temporary adjustments to the prospective
                    payment system since its inception. In accordance with the Balanced
                    Budget and Refinement Act5 and the Benefits Improvement and
                    Protection Act,6 the following payment changes were applied to
                    selected RUGs and remained in effect until January 1, 2006:
                    o 	 an increase of 20 percent in the payment rate for 15 RUGs,
                         including those for extensive services, special care, clinically
                         complex care, as well as 3 RUGs in the special rehabilitation
                         category; and




                  3 A benefit period is a period of time for measuring the use of insurance benefits. It is a period

                  of consecutive days during which covered services furnished to a patient may be paid for by

                  the hospital insurance plan. The term “benefit period” is synonymous with spell of illness.

                  4 To determine the RUG to which a resident belongs, SNFs must complete the Minimum Data 

                  Set 2.0 assessment, which includes a standardized set of clinical and functioning status

                  measures. SNFs complete this assessment for all patients at scheduled intervals during their 

                  stay. 

                  5 Medicare, Medicaid, and SCHIP Balanced Budget and Refinement Act of 1999, Pub. L.             

                  No. 106-113, 113 Stat. 1501. 

                  6 Medicare, Medicaid, and SCHIP Benefits Improvement and Protection Act of 2000, Pub. L. 

                  No. 106-554, 114 Stat. 2763. 




OEI-02-04-00270     MEDICARE BENEFICIARY ACCESS    TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4 	       2
      I N T R O D             U C T                            I O N

                           o 	 an increase of 6.7 percent in the payment rate for
                                14 rehabilitation RUGs. The other RUGs increased in the BBA
                                maintained the 20-percent increase.

                           Both increases expired when CMS adopted the RUG-53 classification
                           system on January 1, 2006.7
                           In accordance with the Balanced Budget and Refinement Act and the
                           Benefits Improvement and Protection Act, the following two changes
                           applied to all Medicare SNF beneficiaries and remained in effect until
                           October 1, 2002:
                           o 	 an increase of 4 percent in the per diem payment rate for all
                                RUGs for fiscal years 2001 and 2002, and
                           o 	 an increase of 16.66 percent in the nursing home component of the
                                payment rate for all RUGs for April 2001 through September
                                2002.
                           Recent Trends in SNF Care
                           Between fiscal years 1992 and 2002, expenditures for Medicare SNF
                           payments increased at an average rate of 15 percent annually, with a
                           substantial dip in spending occurring in fiscal years 1999 and 2000. See
                           Chart 1 below. Total Medicare spending for SNFs in fiscal year 2004
                           was estimated at $15.7 billion.8


                                                          16

             CHART 1                                      14
Medicare Spending for                                     12
       Skilled Nursing
                                                          10
                                 Annual Expenditures




 Facilities 1992–2004
                                  (dollars in billions)




                                                          8
                                                          6
                                                          4
                                                          2
                                                          0
                                                          1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004
                                                                                               Fiscal Year

                            Source: CMS Statistics Publications, Office of Research, Development and Information.



                         7 70 FR 45026, 45031 (August 4, 2005).

                         8 CMS. Office of Financial Management, Office of the Actuary. Available online at
                          www.cms.hhs.gov. Accessed December 28, 2005.



     OEI-02-04-00270       MEDICARE BENEFICIARY ACCESS                   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4 	   3
    I N T R O D                  U C T           I O N

                         Medicare data further show large increases in the total number of
                         Medicare SNF beds since 2000. In 2000, there were a total of 939,356
                         Medicare SNF beds, which increased by 53 percent to 1,437,400 in 2004.
                         See Table 1 below.




             Table 1: Number of SNF Beds, 2000–2004


                                                                                                                             Percentage
                                       2000            2001                 2002                   2003              2004       change
            Medicare
                                   939,356         1,105,503        1,260,685              1,372,010             1,437,400       53.0%
            Beds
            Total
                                1,658,032          1,653,997        1,666,051              1,672,034             1,677,614        1.2%
            Beds*
          *Includes both certified and noncertified.

          Source: Health Care Information System.




                         Finally, Medicare data show that more than 1,763,000 beneficiaries
                         received SNF care in 2004—a 20-percent increase from 2000, when
                         more than 1,468,000 beneficiaries received SNF care.
                         Discharge Planners
                         Federal regulations require all hospitals to offer discharge planning
                         services.9 These services are developed by, or under the supervision of,
                         a registered professional nurse, social worker, or other appropriately
                         qualified personnel. In most hospitals, the social work, case
                         management, or utilization review department has primary
                         responsibility for discharge planning. Discharge planners conduct a
                         patient assessment and meet with utilization review staff, the patient’s
                         nurses and physicians, and other relevant interdisciplinary team
                         members to identify patients who are likely to suffer adverse health
                         consequences in the absence of adequate discharge planning. Discharge
                         planners then evaluate these patients’ likely need for posthospital
                         services and the availability of these services.




                      9 42 CFR § 482.43.




OEI-02-04-00270          MEDICARE BENEFICIARY ACCESS       TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                        4
I N T R O D        U C T       I O N


                     Prior Work on Access to Skilled Nursing Facilities
                     OIG released three reports from 1999 to 2001 on access to SNFs for
                     Medicare beneficiaries who were discharged from hospitals.10 The most
                     recent report found that most Medicare beneficiaries generally did not
                     have problems obtaining SNF care. However, discharge planners
                     commonly reported that beneficiaries requiring intravenous (IV)
                     antibiotics and/or expensive drugs and those with medically complex
                     conditions experienced delays being placed in a SNF. These findings
                     were consistent with those from the earlier studies.


                     SCOPE AND METHODOLOGY
                     We based this study on data from two sources: structured interviews
                     with hospital discharge planners who have firsthand experience placing
                     Medicare beneficiaries in SNFs, and an analysis of Medicare data for
                     beneficiaries who were discharged from the hospital to a SNF.
                     Structured Interviews
                     We selected a random sample of 300 acute care hospitals with 30 or
                     more beds from the 50 States and the District of Columbia. We found
                     that 15 of these hospitals were in fact not acute care hospitals; were
                     pediatric, psychiatric, or cancer care centers; or hospitals that were
                     bankrupt or no longer qualified to meet the minimum bed standard.

                     Of the remaining 285 hospitals, we received responses from 256, a
                     90-percent response rate. We conducted structured interviews with the
                     discharge planner or his or her designee from each hospital. We asked
                     discharge planners about their experiences with placing Medicare
                     beneficiaries in SNFs and about the medical conditions and/or service
                     needs of beneficiaries they are unable to place or who experience delays.
                     We conducted these interviews between December 2004 and March
                     2005. Note that this is the same sample of hospitals used in the OIG
                     study “Medicare Beneficiary Access to Home Health Agencies: 2004”
                     (OEI-02-04-00260). Appendix B provides confidence intervals for key
                     findings.

                     For relevant questions, we determined whether there were any
                     statistical differences between responses to our current interviews and

                   10 OIG. “Early Effects of the Prospective Payment System on Access to SNFs,”
                   OEI-02-99-00400, August 1999; “Medicare Beneficiary Access to SNF: 2000,”
                   OEI-02-00-00330, September 2000; and “Medicare Beneficiary Access to SNF: 2001,”
                   OEI-02-01-00160, July 2001.



 OEI-02-04-00270     MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   5
I N T R O D           U C T     I O N



                          responses to similar questions from our 2001 study. Additionally, we
                          compared key characteristics of the hospitals in our current sample with
                          those in our 2001 sample. Specifically, we compared the number and
                          type of beds, facility ownership, and whether the hospital was in an
                          urban or rural area. The differences between the samples are within
                          statistical sampling variation.
                          Analysis of Medicare Data
                          We used the most up-to-date Medicare data from CMS’s National
                          Claims History File that were available at the start of the study. We
                          identified all beneficiaries who: (1) had a paid SNF claim between April
                          1, 2003, and March 31, 2004; and (2) had a hospital discharge within
                          30 days prior to their SNF claim.11 We identified all beneficiaries who
                          met these criteria for each year starting with April 1, 1999.

                          Based on these data, we analyzed several measures to determine
                          whether there have been any large changes in beneficiaries’ access to
                          SNFs since the implementation of the prospective payment system. We
                          define a large change to be 1 percentage point or greater or 1 day or
                          longer in these analyses. We analyzed the following measures for the
                          5-year period:

                            1. 	 the proportion of Medicare beneficiaries who were discharged from
                                 a hospital to a SNF for the 10 most common Diagnosis Related
                                 Groups (DRG)12 and the 10 most common RUGs to assess whether
                                 beneficiaries with certain medical conditions are being placed in
                                 SNFs since the implementation of the prospective payment
                                 system,13
                            2. 	 beneficiaries’ average length of stay in the hospital for the 10 most
                                 common DRGs and the 10 most common RUGs to assess whether
                                 certain beneficiaries are experiencing longer delays before being

                        11 Note that we refer to this year of data as 2004 and that each year starts with April 1 of the
                        prior year and ends with March 31 of that year. The timeframe used in this study (April 1 to
                        March 31) differs from the timeframe used in previous OIG studies on access to SNFs. These
                        studies were based on data from the first quarter of each year, whereas this study is based on
                        an entire year of data.
                        12 Most hospitals are paid a fixed amount for each beneficiary depending upon the DRG to
                        which the beneficiary is assigned. A DRG is assigned based on a beneficiary’s diagnosis,
                        surgery, age, discharge destination, and sex. Each DRG has a weight that reflects the relative
                        cost, across all hospitals, of treating cases classified in that DRG.
                        13 We found little change in the 10 most common DRGs and RUGs in each year. The 10 most

                        common DRGs represent approximately 35 percent of all beneficiaries each year and the
                        10 most common RUGs represent approximately 84 percent of all beneficiaries each year.



    OEI-02-04-00270       MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4 	        6
I N T R O D           U C T   I O N



                               discharged to a SNF since the implementation of the prospective
                               payment system, and

                           3. 	 beneficiaries’ average length of time in days between hospital
                                discharge and the start of SNF care for the 10 most common DRGs
                                and the 10 most common RUGs to assess whether certain
                                beneficiaries are experiencing longer average times between
                                discharge from a hospital and being placed in a SNF since the
                                implementation of the prospective payment system.

                         We then analyzed these measures to determine whether there are large
                         differences between beneficiaries in urban and rural areas and between
                         beneficiaries who were placed in nonprofit and for-profit SNFs. Using
                         the Urban Influence Codes developed by the U.S. Department of
                         Agriculture, we divided the facilities, based on their addresses, into
                         urban and rural areas. Appendix C provides a more detailed description
                         of the Urban Influence Codes. Using data from CMS’s Online Survey
                         Certification and Reporting system, we determined which beneficiaries
                         were placed in nonprofit and for-profit SNFs.

                         Specifically, we analyzed the proportion of Medicare beneficiaries with
                         certain medical conditions receiving SNF care in urban and rural areas
                         to see if there were any large differences compared to the proportion of
                         all Medicare beneficiaries in SNFs in urban and rural areas. If the
                         proportion of beneficiaries with a certain DRG or RUG differed from the
                         proportion of all beneficiaries in urban and rural areas by 5 or more
                         percentage points, we considered it to be a large difference. We
                         conducted a similar analysis of the proportion of Medicare beneficiaries
                         who were placed in nonprofit and for-profit SNFs. We conducted these
                         analyses for 2004.
                         Standards
                         Our review was conducted in accordance with the “Quality Standards
                         for Inspections” issued by the President’s Council on Integrity and
                         Efficiency and the Executive Council on Integrity and Efficiency.




    OEI-02-04-00270      MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4 	   7
Δ      F I N D I N G S

   Most Medicare beneficiaries have access to                                           Eighty-four percent of discharge
                     skilled nursing facilities                                         planners report that all beneficiaries
                                                                                        can be placed

                         As shown in Chart 2, 84 percent of discharge planners report that they
                         are able to place all of their Medicare beneficiaries who need care in a
                         SNF in a typical month. This is a statistically significant increase from
                         our 2001 study, in which 73 percent of discharge planners reported
                         being able to place all of their Medicare beneficiaries who needed care in
                         a SNF.14
                         Additionally, 10 percent of discharge planners report not being able to
                         place up to 5 percent of their Medicare beneficiaries, while another
                         5 percent report not being able to place more than 5 percent of their
                         Medicare beneficiaries in a typical month. In total, discharge planners
                         in our sample are not able to place about 0.5 percent of all their
                         Medicare beneficiaries (108 of 21,323) who need skilled care in a typical
                         month. Discharge planners most commonly explain that these
                         beneficiaries typically stay in the hospital, go home, or enter home
                         health or hospice care.




       CHART 2:
   Proportion of
      Discharge                                                                                                  84% Can Place All
                                                                          84%
Planners Placing
       Medicare                                                                                                  10% Cannot Place 1–5
 Beneficiaries in                                                                                                Percent
           SNFs
                                                                                                                 5% Cannot Place More
                                                                                                                 Than 5 Percent

                                                                                                                 2% Don't Know


                                           2%
                                                                                                              n=256
                                              5%
                                                        10%




                      Note: Total does not equal 100 percent due to rounding.

                      Source: OIG analysis of discharge planner interviews, 2005.




                      14 In a 2-tailed t-test, this difference was significant at the 95-percent confidence level.




    OEI-02-04-00270      MEDICARE BENEFICIARY ACCESS       TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                      8
F   I N D I N G          S




                               Discharge planners also generally report that the supply of SNF beds in
                               their area is adequate. Specifically, 73 percent of discharge planners
                               report that there are enough SNF beds (including hospital swing beds)
                               in their area for Medicare beneficiaries. Twenty-three percent of
                               discharge planners report that, on average, they have to contact
                               1 facility to place a Medicare beneficiary in a SNF. An additional
                               35 percent report they have to contact an average of 2 facilities,
                               19 percent report they have to contact 3 facilities, and 23 percent report
                               they have to contact 4 or more facilities.
                               Medicare data show no large changes that may indicate a decline in access
                               Medicare data show no large changes that may indicate a decline in access
                               for beneficiaries with certain medical conditions who were discharged to
                               SNF care in the past 5 years. Again, we define a large change in these
                               analyses to be 1 percentage point or greater or 1 day or longer.
                               Diagnosis Related Groups. A decrease in the proportion of Medicare
                               beneficiaries with a specific DRG who are discharged from the hospital
                               to SNF care might indicate that beneficiaries with certain medical
                               conditions are experiencing a decline in access to SNF care. However,
                               we found no large decreases in the proportion of Medicare beneficiaries
                               who were discharged from the hospital to a SNF for 9 of the 10 most
                               common DRGs over the past 5 years. See Table 2 on the following page.
                               One exception was DRG 014 (intracranial hemorrhage or cerebral
                               infarction), which has decreased by more than 1 percentage point since
                               2000. This decrease may be explained by a change in the definition of
                               DRG 014, or possible miscoding of this particular DRG.15




                             15 DRG 014 was designated a postacute transfer DRG in 2001. The purpose of the transfer
                             policy is to avoid providing an incentive for a hospital to transfer a beneficiary to another
                             hospital early in the beneficiary’s stay in order to minimize costs while still receiving the full
                             DRG payment. A recent OIG audit report (A-04-04-03000) found that hospitals did not always
                             comply with Medicare’s postacute transfer policy and improperly coded transfers to postacute
                             care as discharges to home. Additionally, DRG 014 was redefined in October 2000, when the
                             diagnosis for transient ischemia was removed from the DRG.



       OEI-02-04-00270         MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4          9
F     I N D I N G                  S        





       Table 2: Proportion of Medicare Beneficiaries Discharged to SNFs for the 10 Most Common
       DRGs (2000–2004)*



                                                                                                                                              Difference
      Initial Hospital DRG                                            2000             2001              2002              2003        2004   2000–2004
      DRG 209—Major Joint and Limb                                    8.6%             8.6%              8.4%              8.3%        8.1%          -0.5
      Reattachment Procedures of Lower Extremity


      DRG 089—Simple Pneumonia and Pleurisy                           5.6%             5.0%              5.5%              5.1%        5.6%          0.0


      DRG 127—Heart Failure and Shock                                 4.6%             4.7%              4.5%              4.6%        4.6%          0.0


      DRG 210—Hip and Femur Procedures Except                         4.8%             4.7%              4.4%              4.3%        4.2%          -0.6
      Major Joint Procedures


      DRG 014—Intracranial Hemorrhage or                              5.9%             5.6%              5.2%              4.3%        3.4%          -2.5
      Cerebral Infarction


      DRG 320—Kidney and Urinary Tract                                2.3%             2.4%              2.5%              2.5%        2.8%          0.5
      Infections


      DRG 296—Nutrition and Miscellaneous                             2.8%             2.9%              3.1%              3.1%        2.7%          -0.1
      Metabolic Disorders


      DRG 462—Rehabilitation                                         2.4%              2.5%              2.4%              2.4%        2.4%          0.0


      DRG 416—Septicemia                                              2.2%             2.1%              2.1%              2.2%        2.4%          0.2


      DRG 088—Chronic Obstructive Pulmonary                           2.4%             2.3%              2.3%              2.2%        2.3%          -0.1
      Disease


    *Note that the year starts with April1 of the prior year and ends with March 31 of that year.

    Source: OIG analysis of CMS’s National Claims History File, 2005.




                                        Resource Utilization Groupings. Similar to our analysis of DRGs, a
                                        decrease in the proportion of Medicare beneficiaries in a RUG might
                                        indicate that beneficiaries with certain service needs are experiencing a
                                        decline in access to SNF care. Again, we found no substantial decreases
                                        in the proportion of Medicare beneficiaries who were discharged from a
                                        hospital to a SNF for 8 of the 10 most common RUGs over the past
                                        5 years. Two exceptions were RHB (Special Rehab, High 8–12) and
                                        RMB (Special Rehab, Medium 8–14), which decreased by 1.2 and
                                        1.7 percentage points, respectively. See Table 3 on the following page.

           OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS          TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                   10
F     I N D I N G                  S        





       Table 3: Proportion of Medicare Beneficiaries Discharged to SNFs for the 10 Most Common
       RUGs (2000–2004)*


                                                                                                                                                 Difference
      RUG                                                       2000           2001               2002               2003                 2004   2000–2004
      RHC (Special Rehab, High 13–18)                          16.0%          17.4%              18.5%              18.8%                19.1%           3.1



      RHB (Special Rehab, High 8–12)                           17.9%          18.5%              18.2%              17.7%                16.7%          -1.2



      RVB (Special Rehab, Very High 9–15)                        9.6%           7.7%               8.9%               9.8%               11.3%          1.7



      SE2 (Extensive Care 2–3)                                   6.6%           6.4%               7.2%               7.4%               7.0%           0.4



      RMB (Special Rehab, Medium 8–14)                           8.4%           9.0%               8.4%               7.4%               6.7%           -1.7



      SE3 (Extensive Care 4–5)                                   5.1%           4.9%               5.5%               6.1%               6.3%           1.2



      RHA (Special Rehab, High 4–7)                              6.6%           7.2%               6.3%               6.1%               5.7%           -0.9



      RMC (Special Rehab, Medium 5–18)                           4.8%           4.8%               4.9%               4.6%               4.3%           -0.5



      RUB (Special Rehab, Ultra High 9–15)                       3.1%           2.7%               2.5%               2.9%               3.8%           0.7



      RVA (Special Rehab, Very High 4–8)                         3.6%           3.3%               3.0%               3.1%               3.4%           -0.2



    *Note that the year starts with April1 of the prior year and ends with March 31 of that year.

    Source: OIG analysis of CMS’s National Claims History File, 2005.




                                           Average length of stay in the hospital. An increase in the average length of
                                           stay in the hospital might indicate that beneficiaries with certain
                                           medical conditions or service needs are experiencing a decline in access
                                           to SNF care. However, we found no large increases in average length of
                                           stay in the hospital for any of the 10 most common DRGs or for any of
                                           the 10 most common RUGs. In fact, the average length of stay for all

              OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                         11
F   I N D I N G 
S



                        but 2 of the 10 most common DRGs and all of the 10 most common
                        RUGs either decreased or stayed the same since the implementation of
                        the prospective payment system. See Appendix D, Tables 7 and 8.16
                        Average length of time between hospital discharge and the start of SNF care.
                        Similarly, an increase in the average length of time between hospital
                        discharge and the start of SNF care might indicate that beneficiaries
                        with certain medical conditions or service needs are experiencing a
                        decline in access. Again, we found no large increases in the average
                        length of time between hospital discharge and the start of SNF care for
                        any of the 10 most common DRGs or for any of the 10 most common
                        RUGs. The average length of time between hospital discharge and the
                        start of SNF care for all DRGs and all but two RUGs either decreased or
                        stayed the same since the implementation of the prospective payment
                        system. See Appendix D, Tables 9 and 10.



      However, beneficiaries with certain medical               Discharge planners report delays
                                                                placing certain beneficiaries
     conditions or service needs may experience
                                                                Thirty-five percent of discharge
                                           delays
                                                                planners report having Medicare
                        beneficiaries who experience delays at least sometimes before being
                        placed in a SNF. This is not a statistically significant decrease from the
                        2001 estimate, when 36 percent of discharge planners reported having
                        Medicare beneficiaries who experienced delays at least sometimes.

                        Ninety-one percent (234 of 256) of discharge planners report ever
                        having Medicare beneficiaries who experience delays. Of those, most
                        (160 of 234) say that delays are associated with certain medical
                        conditions or service needs. See Table 4 on the following page.
                        Specifically, discharge planners report that Medicare beneficiaries
                        needing IV antibiotics and/or expensive drugs, wound care, a ventilator,
                        or dialysis, as well as beneficiaries with behavior problems, are most
                        often delayed before being placed in a SNF. These medical conditions
                        and service needs are similar to the ones that discharge planners report
                        are associated with Medicare beneficiaries they can never place
                        in a SNF.




                      16 Not all tables in the appendixes are referenced in the report; some are provided for
                      informational purposes only.



    OEI-02-04-00270     MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   12
F   I N D I N G       S       





                          Table 4: Medical Conditions/Service Needs Associated With
                          Placement Delays


                          Medical Condition/Service Need                                                         n=160
                          IV Antibiotics/Infusion/Drug Needs                                                        67

                          Wound Care/Decubitus Ulcer                                                               50

                          Behavior Problems                                                                        47

                          Ventilator                                                                               46

                          Renal Failure/Dialysis                                                                   43

                          Methicillin-Resistant Staphylococcus Aureus                                              36
                          (MRSA)/Vancomycin-Resistant Enterococcus
                          (VRE)/Tuberculosis


                      Note: Responses are not mutually exclusive.

                      Source: OIG analysis of discharge planner interviews, 2005.



                      Discharge planners who report delays placing Medicare beneficiaries in
                      SNFs commonly explain that the cost of providing these services or
                      Medicare reimbursement is the reason for placement delays (73 of 160).
                      Specifically, they report that costs exceed reimbursements for
                      treatments such as IV antibiotics and/or expensive drugs or dialysis,
                      and that having too many patients who need high levels of care strains
                      the facility. Discharge planners also explain that special equipment
                      needs, such as specialty beds or prostheses (63 of 160), and shortage of
                      qualified staff (36 of 160), such as registered nurses or nurses trained to
                      work with psychiatric patients, may cause delays placing beneficiaries.
                      They explain that it may be more difficult to find a SNF that can
                      provide the appropriate level and/or type of care.

                      The medical conditions and service needs that discharge planners
                      associate with beneficiaries whose placement is delayed, as well as the
                      reasons for delays, are similar to the ones that discharge planners
                      reported in previous studies. In 2001, discharge planners reported that
                      Medicare beneficiaries who needed IV antibiotics and/or expensive
                      drugs, required a ventilator, required dialysis, had behavior problems,
                      and/or had wound care needs most often experienced placement delays.




    OEI-02-04-00270   MEDICARE BENEFICIARY ACCESS      TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4       13
F    I N D I N G         S


        Differences in placement rates and length of                Beneficiaries with certain
                                                                    medical conditions are placed
       stay between beneficiaries in urban and rural
                                                                    more frequently in SNFs in urban
    areas and between beneficiaries in nonprofit and
                                                                    or rural areas
                    for-profit facilities were detected             We analyzed the proportion of
                        Medicare beneficiaries with certain medical conditions in urban and
                        rural areas to see if there were any large differences (i.e., 5 or more
                        percentage points), compared to the proportion of all Medicare
                        beneficiaries in SNFs in urban and rural areas. In 2004, 75 percent of
                        all beneficiaries in SNFs were in urban areas and 25 percent were in
                        rural areas.

                        We found that beneficiaries with certain medical conditions are placed
                        more frequently in SNFs in urban or rural areas. Specifically, for 3 of
                        the 10 most common RUGs, the proportion of beneficiaries in SNFs in
                        urban areas was greater compared to all beneficiaries in SNFs in urban
                        areas. Conversely, for another 2 of the 10 RUGs, the proportion of
                        beneficiaries in SNFs in rural areas was greater compared to all
                        beneficiaries in rural areas.17 See Appendix D, Table 12.
                        Additionally, Medicare data show that beneficiaries with certain
                        medical conditions in urban areas have longer average lengths of stay in
                        the hospital than beneficiaries with the same conditions in rural areas.
                        In 2004, beneficiaries in urban areas with 6 of the 10 most common
                        DRGs and those with 7 of the 10 most common RUGs had an average
                        length of stay in the hospital that was greater by at least 1 day than
                        beneficiaries with these same conditions in rural areas. See Appendix
                        D, Tables 13 and 14.

                        In our interviews, 54 percent of discharge planners report no difference
                        between placing Medicare beneficiaries in urban and rural areas,
                        whereas 30 percent of discharge planners report some differences.18
                        Those who say that placing Medicare beneficiaries in urban areas is
                        easier commonly explain that the capacity is greater in urban areas—
                        there are more facilities, more beds, more qualified staff, and easier
                        access to equipment. Those who report that placing Medicare

                      17 In addition, the proportion of beneficiaries in urban areas with DRG 462 was at least
                      5 percentage points greater than all beneficiaries in urban areas, whereas the proportion of
                      beneficiaries in rural areas with DRG 089 was at least 5 percentage points greater than all
                      beneficiaries in rural areas. See Appendix D, Table 11.
                      18 The remaining 16 percent of discharge planners report having no experience placing
                      Medicare beneficiaries in both urban and rural areas or report that they “don’t know.”



    OEI-02-04-00270     MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4        14
F   I N D I N G        S

                        beneficiaries in rural areas is easier say that they often have better
                        relationships with rural facilities.
                        Beneficiaries with certain medical conditions are more frequently placed in
                        nonprofit or for-profit SNFs
                        We conducted a similar analysis of Medicare beneficiaries with certain
                        medical conditions who are in nonprofit and for-profit SNFs to see if
                        there were any large differences (i.e., 5 or more percentage points)
                        compared to the proportion of all Medicare beneficiaries in nonprofit
                        and for-profit SNFs. In 2004, 33 percent of all Medicare beneficiaries
                        were in nonprofit facilities and 63 percent were in for-profit facilities.19
                        We found that beneficiaries with certain RUGs are placed more
                        frequently in nonprofit or for-profit facilities, compared to all
                        beneficiaries. Specifically, for 2 of the 10 most common RUGs, the
                        proportion of beneficiaries in nonprofit facilities was greater compared
                        to all beneficiaries in nonprofit facilities. For another 3 of the 10 RUGs,
                        the proportion of beneficiaries in for-profit facilities was greater
                        compared to all beneficiaries in for-profit facilities.20 See Appendix D,
                        Table 18. In addition, beneficiaries with 3 of the 10 most common RUGs
                        in for-profit facilities have average lengths of stay in the hospital that
                        were longer by at least 1 day than beneficiaries with these same
                        conditions in nonprofit facilities. See Appendix D, Table 20.




                      19 The remaining 4 percent of beneficiaries were placed in Government facilities.
                      20 In addition, the proportion of beneficiaries with DRG 209 in nonprofit facilities was at least
                      5 percentage points greater than all beneficiaries in nonprofit facilities, whereas the
                      proportion of beneficiaries with DRG 320 and DRG 462 in for-profit facilities was at least
                      5 percentage points greater than all beneficiaries in for-profit facilities. See Appendix D,
                      Table 17.




    OEI-02-04-00270     MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4        15
Δ         C O N C L U S I O N                              



                  We continue to find that Medicare beneficiaries discharged from
                  hospitals have access to SNFs, as evidenced by a significant increase in
                  the proportion of discharge planners who report that they are able to
                  place all their beneficiaries in SNFs. Additionally, we find that
                  Medicare data show no large changes that may indicate a decline in
                  access to care for beneficiaries with the most common medical
                  conditions and/or service needs discharged to SNFs in the past 5 years.
                  At the same time, we find that discharge planners report that
                  beneficiaries with certain medical conditions or service needs may
                  experience placement delays.

                  These findings are similar to the findings in our prior three reports,
                  suggesting that, overall, the prospective payment system has not
                  resulted in reduced access to SNF care. We encourage CMS to
                  continue to monitor access to care. In particular, CMS might closely
                  monitor beneficiaries who continue to experience delays in accessing
                  care, including those who need IV antibiotics and/or expensive drugs,
                  complex wound care, a ventilator, or dialysis, and those who have
                  behavior problems.




OEI-02-04-00270   MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   16
    Δ        A P P E N D I X ~ A


                        Resource Utilization Group Classification System



SNFs are required to classify residents into 1 of 44 Resource Utilization Groups (RUGs), which
determine payment rates. The RUGs are divided into seven major categories. To determine
each resident’s RUG, SNFs must complete the Minimum Data Set 2.0 assessment, which
includes a standardized set of clinical and functioning status measures. SNFs complete this
assessment for every patient at scheduled intervals during his or her stay.




      OEI-02-04-00270      MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   17
  Δ            A P P E N D I X                              ~        B


                                     Confidence Intervals for Key Findings




  Table 5: Point Estimates and Confidence Intervals for Key Findings

  Key Findings                                                                        n            Point Estimate               Confidence Interval*
  Eighty-four percent of discharge planners report that they are                    256                      84%                            +/-4.49
  able to place all of their Medicare beneficiaries who need care
  in a SNF in a typical month.


  Seventy-three percent of discharge planners report that there                     256                             73%                     +/- 5.44
  are enough SNF beds (including hospital swing beds) in their
  area for Medicare beneficiaries.


  Twenty-three percent of discharge planners report that, on                        256                             23%                     +/-5.16
  average, they have to contact one facility to place a Medicare
  beneficiary in a SNF.


  Thirty-five percent of discharge planners report having                           256                             35%                     +/- 6.10
  Medicare beneficiaries who experience delays at least
  sometimes before being placed in a SNF.


  Most of the discharge planners who report ever having                             234                             68%                     +/-5.98
  Medicare beneficiaries who experience delays (160 of 234)**
  say that delays are associated with certain medical conditions
  or service needs.


  Fifty-four percent of discharge planners report no difference                     256                             54%                     +/-6.11
  between placing Medicare beneficiaries in urban and rural
  areas.


*95 Percent confidence interval. 


** The denominator (i.e., 234) includes discharge planners who report having Medicare beneficiaries who experience delays at least sometimes and

discharge planners who report rarely having Medicare beneficiaries who experience delays. Having
                                                                                          
        Medicare beneficiaries who experience delay
are
Source: OIG analysis of discharge planner interviews, 2005.





          OEI-02-04-00270            MEDICARE BENEFICIARY ACCESS      TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                      18
 Δ         AA PP PP EE NN DD II XX                    ~~       DC


                             Department of Agriculture’s Urban Influence Codes


The Urban Influence Codes were developed by the Department of Agriculture Economic
Research Service to take into account the geographic relationship of rural areas to larger urban
economies. The Urban Influence Codes divide U.S. counties, county equivalents, and
independent cities into 12 categories as described in the table below. In our analysis, we
considered the first 2 categories as urban areas and the remaining 10 categories as rural areas.
This is similar to the method used by the Medicare Payment Advisory Commission in its June
2001 “Report to Congress: Medicare in Rural America.”



      Table 6: Urban Influence Codes


      Code                                                                                   2003 Description              Designation

      1                                                      In large metro area of 1+ million residents                        Urban


      2                                            In small metro area of less than 1 million residents                         Urban


      3                                                             Micropolitan adjacent to large metro                         Rural


      4                                                                  Noncore adjacent to large metro                         Rural


      5                                                             Micropolitan adjacent to small metro                         Rural


      6                                               Noncore adjacent to small metro with own town                              Rural


      7                                                 Noncore adjacent to small metro no own town                              Rural


      8                                                       Micropolitan not adjacent to a metro area                          Rural


      9                                                      Noncore adjacent to micro with own town                             Rural


      10                                                   Noncore adjacent to micro with no own town                            Rural


      11                                       Noncore not adjacent to metro or micro with own town                              Rural


      12                                    Noncore not adjacent to metro or micro with no own town                              Rural


    Source: Economic Research Service, U.S. Department of Agriculture.




      OEI-02-04-00270           MEDICARE BENEFICIARY ACCESS      TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                 19
ΔA          A P P E N D I X                                 ~        D
           P P E N D                  I X ~ DD

                                    Analyses of Most Common DRGs and RUGs




   Table 7: Average Length of Hospital Stay in Days for the 10 Most Common DRGs
   (2000–2004)*

                                                                                                                                            Difference
  DRG                                                           2000            2001              2002               2003            2004
                                                                                                                                            2000–2004

  DRG 209—Major Joint and Limb                                    5.4              5.4               5.4                5.3           5.2         -0.2
  Reattachment Procedures of Lower
  Extremity


  DRG 089—Simple Pneumonia and                                    7.6              7.4               7.4                7.2           7.2         -0.4
  Pleurisy, Age Greater Than 17, With
  Complications and Comorbidities

  DRG 127—Heart Failure and Shock                                 8.0              7.9               7.8               7.7            7.5         -0.5


  DRG 210—Hip and Femur Procedures                                6.8              6.9               6.9                6.9           6.8           0
  Except Major Joint Procedures, Age
  Greater Than 17, With Complications and
  Comorbidities


  DRG 014—Intracranial Hemorrhage or                              8.1              8.1               8.1                8.5           8.4          0.3
  Cerebral Infarction


  DRG 320—Kidney and Urinary Tract                                6.7              6.6               6.6                6.4           6.3         -0.4
  Infections, Age Greater Than 17, With
  Complications and Comorbidities

  DRG 296—Nutrition and Miscellaneous                             7.1              7.1               7.0                6.8           6.6         -0.5
  Metabolic Disorders, Age Greater Than 17,
  With Complications and Comorbidities

  DRG 462—Rehabilitation                                         16.5            16.1              16.0               16.5           16.5           0


  DRG 416—Septicemia, Age Greater                                 9.5              9.5               9.5                9.5           9.6          0.1
  Than 17


  DRG 088—Chronic Obstructive Pulmonary                           7.3              7.3               7.2                7.2           7.2         -0.1
  Disease

*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

Source: OIG analysis of CMS’s National Claims History File, 2005.




          OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                       20 

   A     P    P E N D              I X ~         D         





   Table 8: Average Length of Hospital Stay in Days for the 10 Most Common RUGs
   (2000–2004)*

                                                                                                                                          Difference
  RUG                                                          2000        2001               2002              2003               2004
                                                                                                                                          2000–2004

  RHC (Special Rehab, High 13–18)                              10.0           10.1              9.9                9.9              9.9         -0.1



  RHB (Special Rehab, High 8–12)                                8.5            8.5              8.5                8.4              8.3         -0.2



  RVB (Special Rehab, Very High 9–15)                           8.6            8.5              8.6                8.6              8.6           0



  SE2 (Extensive Care 2–3)                                      9.3            9.3              9.1                8.8              8.7         -0.6



  RMB (Special Rehab, Medium 8–14)                              9.0            8.9              8.9                8.8              8.6         -0.4



  SE3 (Extensive Care 4–5)                                     10.3           10.3            10.1                 9.9              9.8         -0.5



  RHA (Special Rehab, High 4–7)                                 8.2            8.2              8.2                8.1              8.0         -0.2



  RMC (Special Rehab, Medium 15–18)                            10.7           10.7            10.6               10.5              10.4         -0.3



  RUB (Special Rehab, Ultra High 9–15)                          9.2            9.3              9.1                9.2              9.2           0



  RVA (Special Rehab, Very High 4–8)                            8.1            8.1              8.1                8.1              8.1           0



*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

Source: OIG analysis of CMS’s National Claims History File, 2005.




        OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                       21 

  A     P    P E N D              I X ~         D         





  Table 9: Average Length of Time Between Hospital Discharge and the Start of SNF Care
  in Days, for the 10 Most Common DRGs (2000–2004)*


                                                                                                                                          Difference
 DRG                                                  2000            2001                2002               2003                 2004    2000–2004
 DRG 209—Major Joint and Limb                           0.1            0.1                 0.1                 0.1                  0.1            0
 Reattachment Procedures of Lower
 Extremity

 DRG 089—Simple Pneumonia and                            0.4             0.4                 0.4                0.4                0.3          -0.1
 Pleurisy, Age Greater Than 17, With
 Complications and Comorbidities

 DRG 127—Heart Failure and Shock                         0.6             0.6                 0.6                0.6                0.6            0


 DRG 210—Hip and Femur                                   0.2             0.2                 0.2                0.1                0.2            0
 Procedures Except Major Joint
 Procedures, Age Greater Than 17,
 With Complications and
 Comorbidities


 DRG 014—Intracranial Hemorrhage                         0.4             0.4                 0.4                0.4                0.4            0
 or Cerebral Infarction


 DRG 320—Kidney and Urinary                              0.4             0.4                 0.4                0.4                0.3          -0.1
 Tract Infections, Age Greater Than
 17, With Complications and
 Comorbidities

 DRG 296—Nutrition and                                   0.5             0.5                 0.4                0.4                0.4          -0.1
 Miscellaneous Metabolic Disorders,
 Age Greater Than 17, With
 Complications and Comorbidities

 DRG 462—Rehabilitation                                  0.8             0.9                 0.8                0.8                0.8            0


 DRG 416—Septicemia, Age Greater                         0.3             0.3                 0.3                0.3                0.3            0
 Than 17


 DRG 088—Chronic Obstructive                             0.6             0.7                 0.7                0.7                0.6            0
 Pulmonary Disease

*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

Source: OIG analysis of CMS’s National Claims History File, 2005.



      OEI-02-04-00270               MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                        22 

    A     P    P E N D              I X ~         D         





   Table 10: Average Length of Time Between Hospital Discharge and the Start of SNF Care
   in Days, for the 10 Most Common RUGs (2000–2004)*


                                                                                                                                           Difference
  RUG                                                    2000             2001                2002               2003               2004   2000–2004
  RHC (Special Rehab, High 13–18)                          0.4             0.4                 0.4                0.4                0.4            0



  RHB (Special Rehab, High 8–12)                            0.4                0.4               0.4                0.4              0.4           0



  RVB (Special Rehab, Very High 9–15)                       0.4                0.5               0.4                0.4              0.4           0



  SE2 (Extensive Care 2–3)                                  0.3                0.3               0.3                0.3              0.3           0



  RMB (Special Rehab, Medium 8–14)                          0.4                0.5               0.4                0.4              0.4           0



  SE3 (Extensive Care 4–5)                                  0.3                0.3               0.3                0.2              0.2         -0.1



  RHA (Special Rehab, High 4–7)                             0.5                0.5               0.5                0.5              0.6          0.1



  RMC (Special Rehab, Medium 15–18)                         0.4                0.4               0.4                0.4              0.4           0



  RUB (Special Rehab, Ultra High 9–15)                      0.5                0.5               0.5                0.5              0.5           0



  RVA (Special Rehab, Very High 4–8)                        0.5                0.5               0.5                0.6              0.6          0.1



*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

Source: OIG analysis of CMS’s National Claims History File, 2005.




         OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                       23 

A   P    P E N D               I X ~         D        





        Table 11: Beneficiaries in Urban and Rural Areas for the 10 Most Common DRGs,
        Compared to All Beneficiaries, 2004*


      DRG                                                                                                                  Urban           Rural
      DRG 209—Major Joint and Limb Reattachment Procedures of Lower                                                        71.9%          28.2%
      Extremity


      DRG 089—Simple Pneumonia and Pleurisy, Age Greater Than 17, With                                                    68.4%†         31.6%†
      Complications and Comorbidities


      DRG 127—Heart Failure and Shock                                                                                      73.7%          26.3%


      DRG 210—Hip and Femur Procedures Except Major Joint Procedures,                                                      74.7%          25.3%
      Age Greater Than 17, With Complications and Comorbidities



      DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                               75.2%         24.8%


      DRG 320—Kidney and Urinary Tract Infections, Age Greater Than 17,                                                    76.3%          23.7%
      With Complications and Comorbidities


      DRG 296—Nutrition and Miscellaneous Metabolic Disorders, Age Greater                                                 74.0%          26.0%
      Than 17, With Complications and Comorbidities


      DRG 462—Rehabilitation                                                                                              80.0%†         20.1%†


      DRG 416—Septicemia, Age Greater Than 17                                                                              75.6%         24.4%


      DRG 088—Chronic Obstructive Pulmonary Disease                                                                        70.2%         29.8%



      All Beneficiaries**                                                                                                  75.0%          25.1%

    *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

    **Total does not equal 100 percent due to rounding.
    †
      The proportion of beneficiaries with this DRG differed from the proportion of all beneficiaries by at least 5 percentage points, which
    we considered to be a large difference.

    Source: OIG analysis of CMS’s National Claims History File, 2005.




         OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                  24
    A   P    P E N D              I X ~          D        





    Table 12: Beneficiaries in Urban and Rural Areas for the 10 Most Common RUGs,
    Compared to All Beneficiaries, 2004*



    RUG                                                                                               Urban                        Rural
    RHC (Special Rehab, High 13–18)                                                                   77.7%                       22.3%



    RHB (Special Rehab, High 8–12)                                                                    77.1%                       22.9%



    RVB (Special Rehab, Very High 9–15)                                                              86.4%†                       13.6%†



    SE2 (Extensive Care 2–3)                                                                         69.5%†                       30.5%†



    RMB (Special Rehab, Medium 8–14)                                                                 70.0%†                       30.0%



    SE3 (Extensive Care 4–5)                                                                          72.5%                       27.5%



    RHA (Special Rehab, High 4–7)                                                                     75.8%                       24.2%



    RMC (Special Rehab, Medium 15–18)                                                                68.4%†                       31.6%†



    RUB (Special Rehab, Ultra High 9–15)                                                             86.6%†                       13.4%†



    RVA (Special Rehab, Very High 4–8)                                                               82.8%†                       17.3%†




    All Beneficiaries**                                                                               75.0%                       25.1%

*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

**Total does not equal 100 percent due to rounding.
†
 The proportion of beneficiaries with this DRG differed from the proportion of all beneficiaries by at least 5 percentage points,
which we considered to be a large difference.

Source: OIG analysis of CMS’s National Claims History File, 2005.




        OEI-02-04-00270             MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4            25
A     P      P E N D              I X ~        D           





      Table 13: Urban and Rural Differences in the Average Length of Hospital Stay in
      Days for the 10 Most Common DRGs, 2004*



     DRG                                                                                                       Urban          Rural
     DRG 209—Major Joint and Limb Reattachment Procedures of Lower                                                5.3           5.1
     Extremity


     DRG 089—Simple Pneumonia and Pleurisy, Age Greater Than 17,                                                   7.6†        6.4†
     With Complications and Comorbidities


     DRG 127—Heart Failure and Shock                                                                               7.9†        6.5†


     DRG 210—Hip and Femur Procedures Except Major Joint                                                            6.9         6.6
     Procedures, Age Greater Than 17, With Complications and
     Comorbidities

     DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                        8.8†        7.4†


     DRG 320—Kidney and Urinary Tract Infections, Age Greater Than                                                  6.5         5.7
     17, With Complications and Comorbidities


     DRG 296—Nutrition and Miscellaneous Metabolic Disorders, Age                                                  6.8†        5.8†
     Greater Than 17, With Complications and Comorbidities


     DRG 462—Rehabilitation                                                                                       16.6         16.5


     DRG 416—Septicemia, Age Greater Than 17                                                                     10.0†         8.1†


     DRG 088—Chronic Obstructive Pulmonary Disease                                                                 7.6†        6.1†


*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

    †Note   that these DRGs differed by 1 day or more. 


Source: OIG analysis of CMS’s National Claims History File, 2005.





     OEI-02-04-00270               MEDICARE BENEFICIARY ACCESS      TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4           26
A    P    P E N D              I X ~         D         





         Table 14: Urban and Rural Differences in the Average Length of Hospital Stay
         in Days for the 10 Most Common RUGs, 2004*



      RUG                                                                                                 Urban                Rural
      RHC (Special Rehab, High 13–18)                                                                      10.2†                8.9†



      RHB (Special Rehab, High 8–12)                                                                          8.6†              7.5†



      RVB (Special Rehab, Very High 9–15)                                                                      8.7               8.0



      SE2 (Extensive Care 2–3)                                                                                9.3†              7.2†



      RMB (Special Rehab, Medium 8–14)                                                                        9.0†              7.6†



      SE3 (Extensive Care 4–5)                                                                              10.5†               8.1†



      RHA (Special Rehab, High 4–7)                                                                           8.2†              7.2†



      RMC (Special Rehab, Medium 15–18)                                                                     11.1†               8.8†



      RUB (Special Rehab, Ultra High 9–15)                                                                     9.2               8.7



      RVA (Special Rehab, Very High 4–8)                                                                       8.2               7.5



    *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

    †Note   that these DRGs differed by 1 day or more. 


    Source: OIG analysis of CMS’s National Claims History File, 2005.





    OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4           27
   A   P     P E N D              I X ~         D        





Note that this table is for informational purposes only. It is not referenced in the report.



           Table 15: Urban and Rural Differences in the Average Length of Time Between
           Hospital Discharge and the Start of SNF Care in Days, for the 10 Most Common
           DRGs, 2004*



         DRG                                                                                                   Urban              Rural
         DRG 209—Major Joint and Limb Reattachment Procedures of                                                  0.1               0.1
         Lower Extremity


         DRG 089—Simple Pneumonia and Pleurisy, Age Greater Than                                                    0.3             0.4
         17, With Complications and Comorbidities


         DRG 127—Heart Failure and Shock                                                                            0.5             0.7


         DRG 210—Hip and Femur Procedures Except Major Joint                                                        0.2             0.2
         Procedures, Age Greater Than 17, With Complications and
         Comorbidities

         DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                     0.4             0.4


         DRG 320—Kidney and Urinary Tract Infections, Age Greater                                                   0.3             0.4
         Than 17, With Complications and Comorbidities


         DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                   0.4             0.5
         Age Greater Than 17, With Complications and Comorbidities


         DRG 462—Rehabilitation                                                                                     0.8             1.0


         DRG 416—Septicemia, Age Greater Than 17                                                                    0.3             0.3


         DRG 088—Chronic Obstructive Pulmonary Disease                                                              0.6             0.6


       *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

       Source: OIG analysis of CMS’s National Claims History File, 2005.




       OEI-02-04-00270             MEDICARE BENEFICIARY ACCESS          TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4           28
   A   P     P E N D              I X ~         D        





Note that this table is for informational purposes only. It is not referenced in the report.



           Table 16: Urban and Rural Differences in the Average Length of Time Between
           Hospital Discharge and the Start of SNF Care in Days, for the 10 Most Common
           RUGs, 2004*



         RUG                                                                                                   Urban              Rural
         RHC (Special Rehab, High 13–18)                                                                          0.4               0.4



         RHB (Special Rehab, High 8–12)                                                                             0.4             0.5



         RVB (Special Rehab, Very High 9–15)                                                                        0.4             0.5



         SE2 (Extensive Care 2–3)                                                                                   0.2             0.3



         RMB (Special Rehab, Medium 8–14)                                                                           0.4             0.5



         SE3 (Extensive Care 4–5)                                                                                   0.2             0.2



         RHA (Special Rehab, High 4–7)                                                                              0.5             0.7



         RMC (Special Rehab, Medium 15–18)                                                                          0.4             0.4



         RUB (Special Rehab, Ultra High 9–15)                                                                       0.4             0.6



         RVA (Special Rehab, Very High 4–8)                                                                         0.5             0.7



       *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

       Source: OIG analysis of CMS’s National Claims History File, 2005.




       OEI-02-04-00270             MEDICARE BENEFICIARY ACCESS          TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4           29
A   P   P E N D              I X ~         D        





           Table 17: Beneficiaries in Nonprofit and For-Profit SNFs for the 10 Most
           Common DRGs, Compared to All Beneficiaries, 2004*



          DRG                                                                                             Nonprofit               For-Profit
          DRG 209—Major Joint and Limb Reattachment Procedures of                                           44.7%†                  50.3%†
          Lower Extremity

          DRG 089—Simple Pneumonia and Pleurisy, Age Greater Than                                              31.3%                 64.0%
          17, With Complications and Comorbidities

          DRG 127—Heart Failure and Shock                                                                      33.2%                 62.5%


          DRG 210—Hip and Femur Procedures Except Major Joint                                                  35.0%                 60.4%
          Procedures, Age Greater Than 17, With Complications and
          Comorbidities

          DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                               32.7%                 62.8%


          DRG 320—Kidney and Urinary Tract Infections, Age Greater                                            26.7%†                 69.2%†
          Than 17, With Complications and Comorbidities

          DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                             29.3%                 66.6%
          Age Greater Than 17, With Complications and Comorbidities

          DRG 462—Rehabilitation                                                                               28.9%                 68.7%†


          DRG 416—Septicemia, Age Greater Than 17                                                              30.3%                 65.9%


          DRG 088—Chronic Obstructive Pulmonary Disease                                                        32.7%                 62.9%



          All Beneficiaries**                                                                                  33.1%                 62.7%

        *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

        **Note that 4.2 percent of beneficiaries were placed in government SNFs.

        †The proportion of beneficiaries with this DRG differed from the proportion of all beneficiaries by at least 5 percentage

        points, which we considered to be a large difference.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




        OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS        TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                30
A    P    P E N D              I X ~         D         





         Table 18: Beneficiaries in Nonprofit and For-Profit SNFs for the 10 Most
         Common RUGs, Compared to All Beneficiaries, 2004*



      RUG                                                                                            Nonprofit                 For-Profit
      RHC (Special Rehab, High 13–18)                                                                   32.5%                     63.7%



      RHB (Special Rehab, High 8–12)                                                                     39.5%†                   56.4%†



      RVB (Special Rehab, Very High 9–15)                                                                25.1%†                   73.0%†



      SE2 (Extensive Care 2–3)                                                                            32.3%                   61.8%



      RMB (Special Rehab, Medium 8–14)                                                                   43.8%†                   49.4%†



      SE3 (Extensive Care 4–5)                                                                            33.0%                   62.0%



      RHA (Special Rehab, High 4–7)                                                                       36.7%                   58.9%



      RMC (Special Rehab, Medium 15–18)                                                                   35.8%                   58.1%



      RUB (Special Rehab, Ultra High 9–15)                                                               20.2%†                   78.6%†



      RVA (Special Rehab, Very High 4–8)                                                                 27.1%†                   70.0%†




      All Beneficiaries**                                                                                 33.1%                   62.7%

    *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

    **Note that 4.2 percent of beneficiaries were placed in government SNFs.

    †The proportion of beneficiaries with this RUG differed from the proportion of all beneficiaries by at least 5 percentage

    points, which we considered to be a large difference.

    Source: OIG analysis of CMS’s National Claims History File, 2005.




    OEI-02-04-00270             MEDICARE BENEFICIARY ACCESS          TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                31
   A   P     P E N D              I X ~         D        





Note that this table is for informational purposes only. It is not referenced in the report.


           Table 19: Nonprofit and For-Profit Differences in the Average Length of
           Hospital Stay in Days for the 10 Most Common DRGs, 2004*



         DRG                                                                                            Nonprofit                 For-Profit
         DRG 209—Major Joint and Limb Reattachment Procedures of                                             5.0                        5.6
         Lower Extremity


         DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                       7.3                   7.6
         Than 17, With Complications and Comorbidities


         DRG 127—Heart Failure and Shock                                                                          7.6                   7.8


         DRG 210—Hip and Femur Procedures Except Major Joint                                                      6.7                   6.9
         Procedures, Age Greater Than 17, With Complications and
         Comorbidities

         DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                   8.0                   8.9


         DRG 320—Kidney and Urinary Tract Infections, Age Greater                                                 6.3                   6.4
         Than 17, With Complications and Comorbidities


         DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                 6.6                   6.7
         Age Greater Than 17, With Complications and Comorbidities


         DRG 462—Rehabilitation                                                                                 16.2                   16.7


         DRG 416—Septicemia, Age Greater Than 17                                                                  9.3                  10.0


         DRG 088—Chronic Obstructive Pulmonary Disease                                                            7.4                   7.5


       *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

       Source: OIG analysis of CMS’s National Claims History File, 2005.




       OEI-02-04-00270             MEDICARE BENEFICIARY ACCESS          TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                32
A    P      P E N D            I X ~         D         





         Table 20: Nonprofit and For-Profit Differences in the Average Length of
         Hospital Stay in Days for the 10 Most Common RUGs, 2004*



      RUG                                                                                              Nonprofit               For-Profit
      RHC (Special Rehab, High 13–18)                                                                       9.4                     10.3



      RHB (Special Rehab, High 8–12)                                                                             8.0                 8.7



      RVB (Special Rehab, Very High 9–15)                                                                       7.6†                 8.9†



      SE2 (Extensive Care 2–3)                                                                                   8.7                 9.0



      RMB (Special Rehab, Medium 8–14)                                                                           8.6                 8.9



      SE3 (Extensive Care 4–5)                                                                                  9.6†                10.6†



      RHA (Special Rehab, High 4–7)                                                                              7.6                 8.3



      RMC (Special Rehab, Medium 15–18)                                                                        10.4                 10.8



      RUB (Special Rehab, Ultra High 9–15)                                                                      8.3†                 9.5†



      RVA (Special Rehab, Very High 4–8)                                                                         7.5                 8.3



    *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

    †Note   that these DRGs differed by one day or more. 


    Source: OIG analysis of CMS’s National Claims History File, 2005.





    OEI-02-04-00270              MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                33
   A   P    P E N D              I X ~         D         





Note that this table is for informational purposes only. It is not referenced in the report.


           Table 21: Nonprofit and For-Profit Differences in the Average Length of Time
           Between Hospital Discharge and the Start of SNF Care in Days, for the 10 Most
           Common DRGs, 2004*



        DRG                                                                                            Nonprofit                 For-Profit
        DRG 209—Major Joint and Limb Reattachment Procedures of                                             0.1                        0.1
        Lower Extremity


        DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                       0.3                   0.4
        Than 17, With Complications and Comorbidities


        DRG 127—Heart Failure and Shock                                                                          0.5                   0.6


        DRG 210—Hip and Femur Procedures Except Major Joint                                                      0.1                   0.2
        Procedures, Age Greater Than 17, With Complications and
        Comorbidities

        DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                   0.4                   0.5


        DRG 320—Kidney and Urinary Tract Infections, Age Greater                                                 0.3                   0.4
        Than 17, With Complications and Comorbidities


        DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                 0.4                   0.4
        Age Greater Than 17, With Complications and Comorbidities


        DRG 462—Rehabilitation                                                                                   0.7                   0.8


        DRG 416—Septicemia, Age Greater Than 17                                                                  0.3                   0.4


        DRG 088—Chronic Obstructive Pulmonary Disease                                                            0.6                   0.7


       *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

       Source: OIG analysis of CMS’s National Claims History File, 2005.




       OEI-02-04-00270             MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                34
   A   P    P E N D              I X ~          D        





Note that this table is for informational purposes only. It is not referenced in the report.



           Table 22: Nonprofit and For-Profit Differences in the Average Length of Time
           Between Hospital Discharge and the Start of SNF Care in Days, for the 10 Most
           Common RUGs, 2004*



        RUG                                                                                            Nonprofit                 For-Profit
        RHC (Special Rehab, High 13–18)                                                                     0.3                        0.4



        RHB (Special Rehab, High 8–12)                                                                           0.3                   0.5



        RVB (Special Rehab, Very High 9–15)                                                                      0.3                   0.5



        SE2 (Extensive Care 2–3)                                                                                 0.2                   0.3



        RMB (Special Rehab, Medium 8–14)                                                                         0.3                   0.5



        SE3 (Extensive Care 4–5)                                                                                 0.2                   0.3



        RHA (Special Rehab, High 4–7)                                                                            0.4                   0.7



        RMC (Special Rehab, Medium 15–18)                                                                        0.3                   0.4



        RUB (Special Rehab, Ultra High 9–15)                                                                     0.4                   0.5



        RVA (Special Rehab, Very High 4–8)                                                                       0.4                   0.6



       *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

       Source: OIG analysis of CMS’s National Claims History File, 2005.




       OEI-02-04-00270             MEDICARE BENEFICIARY ACCESS         TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4                35
Δ      A C K N O W L E D G M E N T S                                                        




                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the New
                  York regional office. Other principal Office of Evaluation and
                  Inspections staff who contributed include:

                  Vincent Greiber, Team Leader
                  Natasha Besch-Turner, Program Analyst

                  Sonjeya Fitzgerald, Program Analyst
                  Nicole Gillette, Program Analyst

                  Tricia Davis, Director, Medicare and Medicaid Branch

                  Sandy Khoury, Program Specialist



                  Technical Assistance

                  Barbara Tedesco, Mathematical Statistician

                  Scott Horning, Program Analyst




OEI-02-04-00270   MEDICARE BENEFICIARY ACCESS   TO   S K I LL E D N U R SI NG FA CI LI T IE S : 2 0 0 4   36
